Audit Report



Return to the USDOJ/OIG Home Page




Office of Juvenile Justice and Delinquency Prevention, Strengthening At-Risk Families All Across America Grant Awarded to the Parents Anonymous Incorporated, Grant Number 1998-JS-FX-0001, Claremont, California

Report No. GR-90-04-013


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of a Strengthening At-Risk Families All Across America Grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to Parents Anonymous located in Claremont, California.  The purpose of this grant was to build and support strong, safe families in partnership with local communities by utilizing the Parents Anonymous model that helps break the cycle of abuse and delinquency.  As of August 20, 2003, Parents Anonymous was awarded a total of $16,673,900 to assess strengths and needs of Parents Anonymous programs.  The grant supported national training, technical assistance, outreach, referrals, and program materials and publications.  In addition, the grant funded Parents Anonymous' efforts to design a children's program model, and a national database system for collecting, analyzing, and disseminating information about Parents Anonymous.  

Our audit revealed that controls over the accounting process and records related to the grant were adequate.  We found Parents Anonymous to be in compliance with OJP's grant requirements.  We reviewed Parents Anonymous' compliance with essential grant conditions and found no weaknesses in the accounting records.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.